Service List
Trump v. Sierra Club, No. 20-138
Counsel for Petitioners Donald J. Trump, et al.:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Email: SupremeCtBriefs@USDOJ.gov
Telephone: (202) 514-2217
Counsel for Respondent State of California:
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
Email: Aimee.Feinberg@doj.ca.gov
Telephone: (916) 210-6003
Counsel for Respondents California and New Mexico:
Joshua A. Klein
California Department of Justice
Office of the Solicitor General
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
Email: joshua.klein@doj.ca.gov
Telephone: (510) 879-0756
Counsel for Respondents Sierra Club and Southern Border Communities
Coalition:
Dror Ladin
American Civil Liberties Union Foundation
125 Broad Street, Floor 18
New York, NY 10004
Email: dladin@aclu.org
Telephone: (212) 284-7303

